                                 - --
                                        NATIONAL SCIENCE FOUNDATION
                                           4201 WILSON BOULEVARD
                                          ARLINGTON, VIRGINIA 22230




                 OFFICE OF
             INSPECTOR GENERAL

                  MEMORANDUM

                                                                                            I


                  DATE: .March16, 1994
                                                                                            I

~   .-    .- .-
                  FROM :
                  THRU :
                                                                                            i
                  TO:       Case File I93060018                                             ~

    e-9




         On February 15, 1994, I
         Officer on the award. D
         charge of the grant and
                                                                   Program
                                                                  s are in
                                                 as access to the computer
                                                                              -
                         -NSFaward money-to fulfill the needs of the department as
                                                           ,listedthe administrators as :

         the grant, and the computer equipment purchased under the grant.
                                                                           and




                                                d not made any site visits
                                                ard became effective April
                                       of any problems occuring with this
         award. On March 16, 1994, I interviewed four students working
         under the award. When questioned, none of the students were aware
         of any problems relating to access or restriction on use of the
         expensive computer             ) purchased under the award.    In
         addition, these students did not have any concerns
         involving the administration of the NSF award under
         and the other PIS.
         Based upon lack of evidence, I find no reason to further
         investigate the allegation. Accordingly, this case is closed.
